IN THE SUPREME COURT OF THE UNITED STATES
No. __________________
ORLANDO BELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT TO Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Orlando Bell, asks leave to file the accompanying Petition for
Writ of Certiorari to the United States Court of Appeals for the District of Columbia
Circuit without payment of costs and to proceed in forma pauperis and in support
thereof states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the
Rules of this Court, with Appendix attached, is submitted for filing
along with this Motion.

2.

Petitioner was determined to be indigent by the United States Court of
Appeals for the District of Columbia Circuit and counsel was appointed
on March 22, 2019, under 18 U.S.C. ยง 3006A.

Respectfully submitted,
/s/ Christopher M. Davis
Christopher M. Davis
/s/ Mary E. Davis
Mary E. Davis
Davis & Davis
1350 Connecticut Avenue, NW
Suite 202
Washington, DC 20036
(202) 234-7300

